VISA
CONSUMER CREDIT CARD AGREEMENT
In this Agreement, "Agreement" means this Consumer Credit Card Agreement. "Disclosure" means the
Credit Card Account Opening Disclosure. The Account Opening Disclosure is incorporated into this
Consumer Credit Card Agreement and is part of the Agreement. In this Agreement the words "you,"
"your," and "yours" mean each and all of those who agree to be bound by this Agreement; "card" means
the Visa credit card and any duplicates, renewals, or substitutions the Credit Union issues to you;
"account" means your Visa credit card line-of-credit account with the Credit Union; and "Credit Union"
means the Credit Union whose name appears on this Agreement or anyone to whom the Credit Union
transfers this Agreement.
1. USING YOUR ACCOUNT - If you are approved for an account, the Credit Union will establish a line of
credit for you. You agree that your credit limit is the maximum amount (purchases, cash advances,
finance charges, plus "other charges") which you will have outstanding on your account at any time.
Unless disclosed otherwise, the Credit Union will not allow advances over the credit limit. If the Credit
Union has a program whereby it allows payment of advances that exceed your credit limit, subject to a
fee, the Credit Union will provide you with notice, either orally, in writing, or electronically
(notwithstanding the requirements of the paragraph entitled "Statements and Notices") explaining your
right to opt in to the Credit Union's program whereby it will honor advance requests over the credit limit.
In the event you opt in to such a program, you agree to the terms of such a program. You may request an
increase in your credit limit only by a method acceptable to the Credit Union. The Credit Union may
increase or decrease your credit limit, refuse to make an advance and/or terminate your account at any
time for any reason not prohibited by law. If you are permitted to obtain cash advances on your account,
we may, from time to time, issue convenience checks to you that may be drawn on your account.
Convenience checks may not be used to make a payment on your account balance. If you use a
convenience check, it will be posted to your account as a cash advance. We reserve the right to refuse to
pay a convenience check drawn on your account for any reason and such refusal shall not constitute
wrongful dishonor.
You may request that we stop the payment of a convenience check drawn on your account. You agree to
pay any fee imposed to stop a payment on a convenience check issued on your account. You may make a
stop payment request orally, if permitted, or in writing. Your request must be made with sufficient time in
advance of the presentment of the check for payment to give us a reasonable opportunity to act on your
request. In addition, your request must accurately describe the check including the exact account number,
the payee, any check number that may be applicable, and the exact amount of the check. If permitted,
you may make a stop payment request orally but such a request will expire after 14 days unless you
confirm your request in writing within that time. Written stop payment orders are effective only for six (6)
months and may be renewed for additional six month periods by requesting in writing that the stop
payment order be renewed. We are not required to notify you when a stop payment order expires. If we
re-credit your account after paying a check or draft over a valid and timely stop payment order, you agree
to sign a statement describing the dispute with the payee, to assign to us all of your rights against the
payee or other holders of the check or draft and to assist us in any legal action. You agree to indemnify
and hold us harmless from all costs and expenses, including attorney's fees, damages, or claims, related
to our honoring your stop payment request or in failing to stop payment of an item as a result of incorrect
information provided to us or the giving of inadequate time to act upon a stop payment request.
2. USING YOUR CARD - You understand that the use of your credit card will constitute acknowledgement
of receipt and agreement to the terms of the Credit Card Agreement and Credit Card Account Opening
Disclosure (Disclosure). You may use your card to make purchases from merchants and others who
accept your card. The credit union is not responsible for the refusal of any merchant or financial institution
to honor your card. If you wish to pay for goods or services over the Internet, you may be required to
provide card number security information before you will be permitted to complete the transaction. In
addition, you may obtain cash advances from the Credit Union, from other financial institutions that
accept your card, and from some automated teller machines (ATMs). (Not all ATMs accept your card.) If
the credit union authorizes ATM transactions with your card, it will issue you a personal identification
number (PIN). To obtain cash advances from an ATM, you must use the PIN issued to you for use with
your card. You agree that you will not use your card for any transaction that is illegal under applicable
federal, state, or local law. Even if you use your card for an illegal transaction, you will be responsible for
all amounts and charges incurred in connection with the transaction. If you are permitted to obtain cash
advances on your account, you may also use your card to purchase instruments and engage in
transactions that we consider the equivalent of cash. Such transactions will be posted to your account as
cash advances and include, but are not limited to, wire transfers, money orders, bets, lottery tickets, and
casino gaming chips, as applicable. This paragraph shall not be interpreted as permitting or authorizing any
transaction that is illegal.
3. PROMISE TO PAY - You promise to pay all charges (purchases, cash advances, balance transfers, use
of convenience checks or any other charge) made to your account by you or anyone you authorize to use
your account. You also promise to pay all finance charges and other charges added to your account under
the terms of this Agreement or another agreement you made with the Credit Union. If this is a joint
account, the paragraph on JOINT ACCOUNTS also applies to your account.
CUNA MUTUAL GROUP, 1991. 2006, 09, ALL RIGHTS RESERVED

DCAGX1 (MXC500 CCM000)-e

4. PERIODIC RATES - The periodic rates applicable to purchases, cash advances, and balance transfers
are disclosed on the Disclosure that accompanies this Agreement. Any penalty rate that may be imposed
for failing to make a payment by the payment due date is also disclosed on the Disclosure. Any rate
change will be made pursuant to applicable law. If the rate for your account is variable, as indicated on
the accompanying Disclosure, the rate charged on purchases, cash advances, balance transfers and any
penalty rate will vary periodically as disclosed in the Disclosure accompanying this Agreement. The initial
rate on your account for certain types of transactions may be an introductory discounted rate
(Introductory Rate) that is lower than the rate that would ordinarily apply for that type of transaction. If an
Introductory Rate applies to your account, the rates and the period of time it will be effective is shown on
the Disclosure accompanying this Agreement. After the Introductory Rate period expires, the periodic rate
will automatically increase to the rates that would ordinarily apply for that type of transaction based on
the terms of this Agreement.
5. FINANCE CHARGES - New purchases posted to your account during a billing cycle will not incur a
finance charge for that billing cycle if you had a zero or credit balance at the beginning of that billing
cycle, or you paid the entire new balance on the previous cycle's billing statement by the payment due
date of that statement; otherwise a finance charge will accrue from the date a purchase is posted to your
account. To avoid an additional finance charge on the balance of purchases, you must pay the entire new
balance on the billing statement by the payment due date of that statement. A finance charge begins to
accrue on cash advances from the date you get the cash advance or from the first day of the billing cycle
in which the cash advance is posted to your account, whichever is later.
The finance charge is calculated separately for purchases and cash advances. For purchases, the finance
charge is computed by applying the periodic rate to the average daily balance of purchases. To get the
average daily balance of purchases, we take the beginning outstanding balance of purchases each day,
add any new purchases, and subtract any payments and/or credits. This gives us the daily balance of
purchases. Then, we add all the daily balances of purchases for the billing cycle together and divide the
total by the number of days in the billing cycle. This gives us the average daily balance of purchases.
For cash advances, the finance charge is computed by applying the periodic rate to the average daily
balance of cash advances. To get the average daily balance of cash advances, we take the beginning
outstanding balance of cash advances each day, add in any new cash advances, and subtract any
payments and/or credits that we apply to the cash advance balance. This gives us the daily balance of
cash advances. Then, we add all the daily balances of cash advances for the billing cycle together and
divide the total by the number of days in the billing cycle. This gives us the average daily balance of cash
advances. Balance transfers are calculated in the same manner as cash advances.
6. FOREIGN TRANSACTIONS - Purchases and cash advances made in foreign currencies will be debited
from your account in U.S. dollars. The exchange rate between the transaction currency and the billing
currency used for processing international transactions is a rate selected by Visa from a range of rates
available in wholesale currency markets for the applicable central processing date, which rate may vary
from the rate Visa itself receives or the government-mandated rate in effect for the applicable central
processing date. The exchange rate used on the processing date may differ from the rate that would have
been used on the purchase date or cardholder statement posting date.
A fee (finance charge), calculated in U.S. dollars, will be imposed on all multiple currency foreign
transactions, including purchases, cash advances and credits to your account. A fee (finance charge),
calculated in U.S. dollars, will be imposed on all single currency foreign transactions, including purchases,
cash advances and credits to your account. A foreign transaction is any transaction that you complete or
a merchant completes on your card outside of the United States, with the exception of U.S. military
bases, U.S. territories, U.S. embassies or U.S. consulates. The Foreign Transaction Fee is set forth on the
Disclosure accompanying this Agreement.
7. FEES - In addition to the periodic rate, the following additional fees may be imposed on your account.
If applicable to your account, the fee amounts and explanations are disclosed on the Disclosure
accompanying this Agreement. Your account may also be subject to additional fees as set forth on the
Disclosure accompanying this Agreement.
a. Annual Fee. If your account is subject to an Annual Fee, the fee will be charged to your account upon
the issuance of your card. Each year following, the annual fee will be charged to your account during the
same month that you were first charged the fee. The fee will be charged each year until your account is
closed and paid in full.
b. Additional Card Fee. If your account is subject to an Additional Card Fee, a fee will be charged for each
additional card issued to you at account opening.
c. Foreign Transaction Fee (Finance Charge). If your account is subject to a Foreign Transaction Fee
(finance charge), a fee may be charged to your account for transactions made outside of the United States
or in a foreign currency.
d. Late Payment Fee. If your account is subject to a Late Payment Fee, the fee will be charged to your
account when you do not make the required minimum payment by or within the number of days of the
statement Payment Due Date set forth on the Disclosure accompanying this Agreement.

DCAGX1 (MXC500 CCM000)-e

e. Over-the-Credit Limit Fee. If you have elected the feature to allow your account to go over your credit
limit, we may charge you a fee as allowed by law. However, in no case will we impose an over-the-limit
fee except in the next two billing cycles unless you have obtained an additional extension of credit in
excess of such credit limit during each subsequent cycle or you have reduced the balance below the
credit limit as of the end of each bill cycle.
f. Returned Payment Fee. If your account is subject to a Returned Payment Fee, the fee will be charged
to your account when a payment is returned to you for any reason.
g. Statement Copy Fee. If your account is subject to a Statement Copy Fee, except as limited by
applicable law and when the request is made in connection with a billing error made by the Credit Union,
a fee may be charged to your account for each copy of a sales draft or statement that you request.
h. Document Copy Fee. If your account is subject to a Document Copy Fee, except as limited by
applicable law, a fee may be charged to your account for each copy of a sales draft or statement that you
request (except when the request is made in connection with a billing error made by the Credit Union).
i. Rush Fee. If your account is subject to a Rush Fee, except as limited by applicable law, a fee may be
charged to your account for each rush card that you request, providing delivery of the card is also
available by standard mail service, without paying a fee for delivery.
j. Emergency Card Replacement Fee. If your account is subject to an Emergency Card Replacement Fee,
a fee will be charged to your account for each emergency replacement card that is issued to you.
k. Card Replacement Fee. If your account is subject to a Card Replacement Fee, a fee will be charged for
each replacement card that is issued to you for any reason.
8. PAYMENTS - Each month you must pay at least the minimum payment shown on your statement by
the date specified on the statement. You may pay more frequently, pay more than the minimum payment
or pay the total new balance in full. If you make extra or larger payments, you are still required to make at
least the minimum payment each month your account has a balance (other than a credit balance). The
minimum payment is 3.00% of your total new balance, or $20.00, whichever is greater, plus the amount
of any prior minimum payments that you have not made, and any amount you are over your credit limit.
In addition to the minimum payment, you must also pay, by the date specified above, the amount of any
prior minimum payment(s) that you have not made, all outstanding unpaid fees and charges, and any
amount you are over your credit limit. The Credit Union also has the right to demand immediate payment
of any amount by which you are over your credit limit.
9. PAYMENT ALLOCATION - Subject to applicable law, your payments may be applied to what you owe
the Credit Union in any manner the Credit Union chooses. However, in every case, in the event you make
a payment in excess of the required minimum periodic payment, the Credit Union will allocate the excess
amount first to the balance with the highest annual percentage rate and any remaining portion to the
other balances in descending order based on applicable annual percentage rate.
10. SECURITY INTEREST - You grant the Credit Union a security interest under the Uniform Commercial
Code and under any common law rights the Credit Union may have in any goods you purchase. If you
give the Credit Union a specific pledge of shares by signing a separate pledge of shares, your pledged
shares will secure your account. You may not withdraw amounts that have been specifically pledged to
secure your account until the Credit Union agrees to release all or part of the pledged amount.
Your Account is secured by all other shares you have in any individual or joint account with the Credit
Union, except for shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law if given as security. These other shares may be
withdrawn unless you are in default under this agreement. You authorize the Credit Union to apply the
balance in your individual or joint share accounts to pay any amounts due on your Account if you
should default.
Collateral securing other loans you have with the Credit Union may also secure this loan, except that a
dwelling will never be considered as security for this account, notwithstanding anything to the contrary in
any other agreement.
11. DEFAULT - You will be in default if you fail to make any minimum payment or other required
payment by the date that it is due. You will be in default if you break any promise you make under this
Agreement. You will be in default if you die, file for bankruptcy or become insolvent, that is, unable to
pay your obligations when they become due. You will be in default if you make any false or misleading
statements in any credit application or credit update. You will also be in default if something happens that
the Credit Union believes may substantially reduce your ability to repay what you owe.
When you are in default, the Credit Union has the right to demand immediate payment of your full
account balance without giving you notice. If immediate payment is demanded, you agree to continue
paying finance charges at the periodic rate charged before default, until what you owe has been paid, and
any shares that were given as security for your account may be applied towards what you owe.

DCAGX1 (MXC500 CCM000)-e

12. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN CARD NOTIFICATION - You agree to notify us
immediately, orally or in writing, at PO Box 208005, Stockton, CA 95208-9005 or telephone
209-948-6024 Ext. 50197 Monday through Thursday 9:00 a.m. to 4:30 p.m., 209-948-6024 Ext.
50197 Friday 9:00 a.m. to 5:30 p.m. or 800-453-4270 after business hours, weekends, and holidays, of
the loss, theft, or unauthorized use of your credit card. You may be liable for the unauthorized use of
your credit card. You will not be liable for unauthorized use that occurs after you notify us of the loss,
theft, or possible unauthorized use. You will have no liability for unauthorized purchases made with your
credit card, unless you are grossly negligent in the handling of your card. In any case, your liability will
not exceed $50.00.
13. CHANGING OR TERMINATING YOUR ACCOUNT - As permitted by law, the Credit Union may change
the terms of this Agreement and any attached Disclosure from time to time. Notice of any change will be
given in accordance with applicable law. If permitted by law and specified in the notice to you, the
change will apply to your existing account balance as well as to future transactions.
Either you or the Credit Union may terminate this Agreement at any time, but termination by you or the
Credit Union will not affect your obligation to pay the account balance plus any finance and other
charges you owe under this Agreement. Your obligation to pay the account balance plus any finance and
other charges you owe under this agreement are subject to all applicable laws and regulations regarding
repayment requirements. You are also responsible for all transactions made to your account after
termination, unless the transactions were unauthorized.
The card or cards you receive remain the property of the Credit Union and you must recover and
surrender to the Credit Union all cards upon request or upon termination of this Agreement whether by
you or the Credit Union. If this is a joint account, the paragraph on JOINT ACCOUNTS of this Agreement
also applies to termination of the account.
14. CHANGING OR TERMINATING AUTHORIZED USERS - Upon your request, we may issue additional
cards for authorized users that you designate. You must notify us in writing of any termination of an
authorized user's right to access your account. Your letter must include the name of the authorized user
and your account number and/or any subaccount number issued to the authorized user along with the
authorized user's card and any convenience or other access checks issued to the authorized user. If you
cannot return the authorized user's card or access checks and if you request your account to be closed,
we will close your account and you may apply for a new account.
15. CREDIT REVIEW AND RELEASE OF INFORMATION - You authorize the Credit Union to investigate
your credit standing when opening or reviewing your account. You authorize the Credit Union to disclose
information regarding your account to credit bureaus and creditors who inquire about your credit
standing. If your account is eligible for emergency cash and/or emergency card replacement services, and
you request such services, you agree that we may provide personal information about you and your
account that is necessary to provide you with the requested service(s).
16. RETURNS AND ADJUSTMENTS - Merchants and others who honor your card may give credit for
returns or adjustments, and they will do so by sending the Credit Union a credit slip which will be posted
to your account. If your credits and payments exceed what you owe the Credit Union, the amount will be
applied against future purchases and cash advances. If the credit balance amount is $1.00 or more, it will
be refunded upon your written request or automatically after six (6) months.
17. ADDITIONAL BENEFITS/CARD ENHANCEMENTS - The Credit Union may from time to time offer
additional services to your account, such as travel accident insurance, at no additional cost to you. You
understand that the Credit Union is not obligated to offer such services and may withdraw or change
them at any time.
18. MERCHANT DISPUTES - The Credit Union is not responsible for the refusal of any merchant or
financial institution to honor your card. The Credit Union is subject to claims and defenses (other than
tort claims) arising out of goods or services you purchase with the card if you have made a good faith
attempt but have been unable to obtain satisfaction from the merchant or service provider, and (a) your
purchase was made in response to an advertisement the Credit Union sent or participated in sending to
you; or (b) your purchase cost more than $50.00 and was made in your state or within 100 miles of your
home.
19. JOINT ACCOUNTS - If this is a joint account, each of you will be individually and jointly responsible
for paying all amounts owed under this Agreement. This means that the Credit Union can require any one
of you individually to repay the entire amount owed under this Agreement. Each of you authorizes the
other(s) to make purchases or cash advances individually. Any one of you may terminate the account and
the termination will be effective as to all of you.
20. EFFECT OF AGREEMENT - This Agreement is the contract which applies to all transactions on your
account even though the sales, cash advances, credit or other slips you sign or receive may contain
different terms.
21. NO WAIVER - The Credit Union can delay enforcing any of its rights any number of times without
losing them.
22. STATEMENTS AND NOTICES - Statements and notices will be mailed to you at the appropriate
address you have given the Credit Union. Notice sent to any one of you will be considered notice to all.
DCAGX1 (MXC500 CCM000)-e

23. SEVERABILITY AND FINAL EXPRESSION - This Agreement and the Disclosure are the final expression
of the terms and conditions of your account. This written Agreement and Disclosure may not be
contradicted by evidence of any alleged oral agreement. Should any part of this Agreement or the
Disclosure be found to be invalid or unenforceable, all other parts of this Agreement and Disclosure shall
remain in effect and fully enforceable to the fullest extent possible under this Agreement.
24. COPY RECEIVED - You acknowledge that you have received a copy of this Agreement and Disclosure.
25. INTERNET GAMBLING TRANSACTIONS PROHIBITED - You may not use your card to initiate any type
of electronic gambling transaction through the Internet.
26. PENALTY RATE DISCLOSURES - If applicable to your account, all rates for your account, including
the rates for purchases, cash advances, and balance transfers, will increase to the Penalty Rate shown on
the Disclosure accompanying this Agreement when you meet one or more of the conditions as set forth in
the Disclosure. Any rate increases applied to your account are subject to applicable notice requirements.
Please refer to the Disclosure for additional information regarding the Penalty Rate.
27. NOTICE TO UTAH BORROWERS - This written agreement is a final expression of the agreement
between you and the Credit Union. This written agreement may not be contradicted by evidence of any
oral agreement.
28. THE FOLLOWING IS REQUIRED BY VERMONT LAW - NOTICE TO CO-SIGNER - YOUR SIGNATURE
ON THIS NOTE MEANS THAT YOU ARE EQUALLY LIABLE FOR REPAYMENT OF THIS LOAN. IF THE
BORROWER DOES NOT PAY, THE LENDER HAS A LEGAL RIGHT TO COLLECT FROM YOU.
29. NOTICE TO ALABAMA BORROWERS - CAUTION: IT IS IMPORTANT THAT YOU THOROUGHLY
READ THIS AGREEMENT BEFORE YOU SIGN IT.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Financial Center Credit Union
PO Box 208005
Stockton, CA 95208-9005
You may also contact us on the Web: www.fccuburt.org
In your letter, give us the following information:
-

Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.

You must contact us:
-

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment
on the amount you think is wrong.

You must notify us of any potential errors in writing [or electronically]. You may call us, but if you do we
are not required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also
tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we
believe the bill is correct.
While we investigate whether or not there has been an error:
-

We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you interest
on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your
balance.
We can apply any unpaid amount against your credit limit.
DCAGX1 (MXC500 CCM000)-e

After we finish our investigation, one of two things will happen:
-

If we made a mistake: You will not have to pay the amount in question or any interest or other fees
related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think you
owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days
telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between
us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from
an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing [or
electronically] at:
Financial Center Credit Union
PO Box 208005
Stockton, CA 95208-9005
www.fccuburt.org
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish
our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do
not pay, we may
report you as delinquent.
NOTICE OF NEGATIVE INFORMATION - Federal law requires us to provide the following notice to
members before any "negative information" may be furnished to a nationwide consumer reporting agency.
We may report information about your account to credit bureaus. Late payments, missed payments, or
other defaults on your account may be reflected in your credit report.

DCAGX1 (MXC500 CCM000)-e

VISA
CONSUMER CREDIT CARD AGREEMENT
Es este Contrato, la palabra "Contrato" se refiere a este Contrato de tarjeta de crédito para consumidores.
La palabra "Declaración" se refiere a la Declaración de apertura de una cuenta de tarjeta de crédito. La
Declaración de apertura de cuenta se incorpora a este Contrato de tarjeta de crédito para consumidores y
constituye parte del Contrato. En este Contrato, las palabras "usted", "su(s)", "suyo(s)" y "suya(s)" hacen
referencia a todos y cada uno de los que acuerdan estar obligados por este Contrato; la palabra "tarjeta"
se refiere a la tarjeta de crédito VISA y a toda renovación, duplicado o reemplazo que la Cooperativa de
Ahorro y Crédito le emita; la palabra "cuenta" se refiere a su cuenta de línea de crédito de la tarjeta VISA
con la Cooperativa de Ahorro y Crédito; y la expresión "Cooperativa de Ahorro y Crédito" se refiere a la
Cooperativa de Ahorro y Crédito cuyo nombre consta en este Contrato o a cualquiera a quien la
Cooperativa de Ahorro y Crédito le transfiera este Contrato.
1. UTILIZACIÓN DE SU CUENTA. Si lo aprueban como titular de una cuenta, la Cooperativa de Ahorro y
Crédito establecerá una línea de crédito para usted. Usted acuerda que su límite de crédito es la cantidad
máxima que tendrá pendiente de pago en cualquier momento (por compras, anticipos en efectivo, cargos
por financiación, más "otros cargos"). A menos que se indique lo contrario, la Cooperativa de Ahorro y
Crédito no permitirá anticipos que excedan el límite de crédito. Si la Cooperativa de Ahorro y Crédito tiene
un programa que permita el pago de anticipos que excedan su límite de crédito, sujeto a cargos, la
Cooperativa de Ahorro y Crédito le enviará una notificación, ya sea en forma oral, por escrito o por vía
electrónica (independientemente de los requisitos del párrafo titulado "Estados de cuenta y notificaciones")
que explicará su derecho a la inclusión voluntaria en el programa de la Cooperativa de Ahorro y Crédito
mediante el cual se aceptarán anticipos que excedan el límite de crédito. En el caso de que usted acepte
su inclusión voluntaria en dicho programa, usted acepta los términos de dicho programa. Sólo puede
solicitar un incremento en su límite de crédito a través de un método que sea aceptable para la
Cooperativa de Ahorro y Crédito. La Cooperativa de Ahorro y Crédito puede aumentar o reducir su límite
de crédito, rehusarse a dar un anticipo y/o cancelar su cuenta en cualquier momento por cualquier razón
que no esté prohibida por la ley. Si se le permite obtener anticipos en efectivo en su cuenta, podemos,
periódicamente, emitirle cheques de conveniencia que pueden librarse a cargo de su cuenta. Los cheques
de conveniencia no pueden usarse para pagar el saldo de su cuenta. Si usa un cheque de conveniencia, se
asentará en su cuenta como un anticipo en efectivo. Nos reservamos el derecho a rehusarnos a pagar un
cheque de conveniencia librado a cargo de su cuenta por cualquier motivo, y esto no se considerará un
rechazo improcedente.
Usted puede solicitar que suspendamos el pago de un cheque de conveniencia librado a cargo de su
cuenta. Usted acepta pagar todos los cargos impuestos por la suspensión del pago de un cheque de
conveniencia emitido a cargo de su cuenta. Puede solicitar la suspensión de pago en forma oral, si está
permitido, o por escrito. Su solicitud debe hacerse con suficiente anticipación a la fecha de presentación
del cheque para su pago, de modo que nos brinde una oportunidad razonable para actuar conforme a su
solicitud. Además, su solicitud debe describir en forma precisa el cheque, e incluir el número exacto de
cuenta, el beneficiario, todo número del cheque que pueda ser pertinente y el monto exacto del cheque. Si
está permitido, puede presentar una solicitud de suspensión de pago en forma oral, pero tal solicitud
caduca al cabo de 14 días, salvo que la confirme por escrito dentro de dicho lapso. Las órdenes escritas
de suspensión de pago están vigentes sólo durante seis (6) meses y pueden renovarse por un período
adicional de seis (6) meses solicitando por escrito que se renueve la orden de suspensión de pago. No
estamos obligados a notificarle cuando una orden de suspensión de pago vence. Si volvemos a acreditar
su cuenta después de pagar un cheque o giro conforme a una orden de suspensión de pago válida y
presentada oportunamente, usted acuerda firmar una declaración que describa el conflicto con el
beneficiario, transferirnos todos sus derechos contra el beneficiario u otros tenedores del cheque o giro y
colaborar con nosotros en toda acción legal. Usted acuerda indemnizarnos y eximirnos de todo costo y
gasto, tales como honorarios de abogados, daños y perjuicios o reclamos, relacionados con nuestra
aceptación de su solicitud de suspensión de pago o con no cumplir con la suspensión de pago de un ítem
como consecuencia de que usted nos haya suministrado información incorrecta o de que usted no nos
haya dado tiempo suficiente para cumplir con una solicitud de suspensión de pago.
2. UTILIZACIÓN DE SU TARJETA. Usted comprende que el uso de su tarjeta de crédito implicará el
reconocimiento de que usted la ha recibido y su aceptación de los términos del Contrato de tarjeta de
crédito y de la Declaración de apertura de una cuenta de tarjeta de crédito (Declaración). Usted puede
utilizar su tarjeta para realizar compras a comerciantes y a otras personas que acepten su tarjeta. La
Cooperativa de Ahorro y Crédito no es responsable de la negativa de comerciantes o instituciones
financieras a aceptar su tarjeta. Si desea pagar bienes o servicios por Internet, se le podrá solicitar
información de seguridad acerca del número de su tarjeta antes de que se le permita completar la
transacción. Asimismo, puede obtener anticipos en efectivo de la Cooperativa de Ahorro y Crédito, y de
otras instituciones financieras que acepten su tarjeta y también de algunos cajeros automáticos (ATM, por
sus siglas en inglés). (No todos los cajeros automáticos aceptan su tarjeta). Si la Cooperativa de Ahorro y
Crédito autoriza transacciones en cajeros automáticos con su tarjeta, le emitirá un número de
identificación personal (PIN, por sus siglas en inglés). Para obtener anticipos en efectivo de un cajero
automático, usted debe utilizar el PIN que se le entregó para que utilizara con su tarjeta. Usted acuerda
que no utilizará su tarjeta para ninguna transacción ilegal según lo establecido por las leyes locales,
CUNA MUTUAL GROUP, 1991. 2006, 09, TODOS LOS DERECHOS RESERVADOS

DCAGX1 (MXC500 CCM000)-e

estatales y federales. Incluso si utiliza su tarjeta para una transacción ilegal, usted será responsable de
todos los montos y cargos en los que se haya incurrido en relación con la transacción. Si se le permite
obtener anticipos en efectivo en su cuenta, también puede usar su tarjeta para comprar instrumentos y
hacer transacciones que consideremos equivalentes a efectivo. Tales transacciones se asentarán en su
cuenta como anticipos en efectivo e incluyen, entre otros, transferencias, giros telegráficos, apuestas,
boletos de lotería y fichas de casino según corresponda. No debe interpretarse que este párrafo permite
ni autoriza ninguna transacción que sea ilegal.
3. COMPROMISO DE PAGO. Usted se compromete a pagar todos los cargos (compras, anticipos en
efectivo, transferencias de saldo, uso de cheques de conveniencia y todo otro cargo) en que usted o
cualquier persona a quien usted autorice a utilizar su cuenta incurran en su cuenta. También se
compromete a pagar todos los cargos por financiación y de otro tipo que se agreguen a su cuenta según
los términos de este Contrato o de otro contrato que usted celebre con la Cooperativa de Ahorro y
Crédito. Para las cuentas conjuntas, el párrafo sobre CUENTAS CONJUNTAS también se aplica a su
cuenta.
4. TASAS PERIÓDICAS. Las tasas periódicas aplicables a compras, anticipos en efectivo y
transferencias de saldo se especifican en la Declaración que acompaña este Contrato. Toda tasa punitiva
que pueda imponerse por incumplimiento de un pago en la fecha de vencimiento del pago también se
especifica en la Declaración. Todo cambio de tasa se hará de conformidad con las leyes pertinentes. Si la
tasa para su cuenta es variable, como se especifica en la Declaración adjunta, la tasa que se cobra por
compras, anticipos en efectivo, transferencias de saldo y toda tasa punitiva variará periódicamente según
se especifica en la Declaración que acompaña este Contrato La tasa inicial de su cuenta para ciertos tipos
de transacciones puede ser una tasa descontada introductoria (Tasa introductoria) que es más baja que la
tasa que se aplicaría habitualmente para ese tipo de transacción. Si se aplica una Tasa introductoria a su
cuenta, las tasas y el período de vigencia se especifica en la Declaración que acompaña este Contrato.
Después de que el período de la Tasa introductoria venza, la tasa periódica aumentará automáticamente a
las tasas que habitualmente se aplicarían para ese tipo de transacción conforme a los términos de este
Contrato.
5. CARGOS POR FINANCIACIÓN. Las compras nuevas que se asienten en su cuenta durante el ciclo de
facturación no incurrirán en ningún cargo por financiación para dicho ciclo si usted tuvo un saldo
acreedor o de cero al comienzo del ciclo o si usted pagó la totalidad del nuevo saldo de la facturación
correspondiente al ciclo anterior antes de la fecha de vencimiento de tal facturación; en caso contrario, se
devengará un cargo por financiación a partir de la fecha en que se asiente una compra en su cuenta. Para
evitar un cargo por financiación adicional en el saldo de las compras, debe pagar la totalidad del nuevo
saldo de la facturación en su fecha de vencimiento. Un cargo por financiación comienza a devengarse en
concepto de anticipos en efectivo a partir de la fecha en que usted recibe dicho adelanto o a partir del
primer día del ciclo de facturación en que el anticipo en efectivo se asienta en su cuenta, lo que sea
posterior.
El cargo por financiación se calcula en forma separada para las compras y para los anticipos en efectivo.
Para las compras, el cargo por financiación se calcula mediante la aplicación de la tasa periódica al saldo
diario promedio de las compras. Para obtener el saldo diario promedio de las compras, tomamos el saldo
inicial pendiente de pago de compras de cada día, sumamos todas las compras nuevas y restamos todos
los pagos y los créditos. Esto nos da el saldo diario de las compras. Luego sumamos todos los saldos
diarios de las compras del ciclo de facturación y dividimos el total por la cantidad de días de dicho ciclo.
Esto nos da el saldo diario promedio de las compras. Para los anticipos en efectivo, el cargo por
financiación se calcula mediante la aplicación de la tasa periódica sobre el saldo diario promedio de los
anticipos en efectivo. Para obtener el saldo diario promedio de los anticipos en efectivo, tomamos el
saldo pendiente de pago inicial de los anticipos en efectivo de cada día, sumamos todos los anticipos en
efectivo nuevos y restamos todos los pagos y créditos que apliquemos al saldo de anticipos en efectivo.
Esto nos da el saldo diario de los anticipos en efectivo. Luego sumamos todos los saldos diarios de
anticipos en efectivo del ciclo de facturación y dividimos el total por la cantidad de días de dicho ciclo.
Esto nos da el saldo diario promedio de los anticipos en efectivo. Las transferencias de saldo se calculan
de la misma forma que los anticipos en efectivo.
6. TRANSACCIONES EN MONEDA EXTRANJERA. Las compras y los anticipos en efectivo que se
realicen en moneda extranjera se debitarán de su cuenta en dólares estadounidenses. El tipo de cambio
entre la divisa de la transacción y la divisa de facturación utilizado para procesar las transacciones
internacionales es un tipo de cambio seleccionado por Visa de una serie de tasas disponibles en los
mercados de divisas mayoristas en la fecha de procesamiento central correspondiente. Dicha tasa puede
variar con respecto a la tasa que Visa recibe o la tasa que exige el gobierno que esté en vigencia en la
fecha de procesamiento central correspondiente. El tipo de cambio de divisas utilizado en la fecha en que
se procesa la operación puede diferir de la tasa que se habría usado en la fecha de la compra o en la
fecha en que se asentó el estado de cuenta del tarjetahabiente.
Se impondrá un cargo (cargo por financiación), calculado en dólares estadounidenses, para todas las
transacciones que utilicen varias monedas extranjeras, incluidas las compras, anticipos en efectivo y
montos acreditados a su cuenta. Se impondrá un cargo (cargo por financiación), calculado en dólares
estadounidenses, para todas las transacciones que utilicen una sola moneda extranjera, incluidas las
compras, los anticipos en efectivo y los montos acreditados a su cuenta. Una transacción en moneda
extranjera es toda aquella que usted o un comerciante realiza con su tarjeta fuera de los Estados Unidos,
a excepción de las bases militares estadounidenses, los territorios estadounidenses y las embajadas o
consulados estadounidenses. El cargo por transacciones en moneda extranjera está establecido en la
Declaración que acompaña este Contrato.
DCAGX1 (MXC500 CCM000)-e

7. CARGOS. Además de la tasa periódica, pueden imponerse en su cuenta los siguientes cargos
adicionales. Si corresponden a su cuenta, los montos y las explicaciones de los cargos se especifican en
la Declaración que acompaña este Contrato. Su cuenta también puede estar sujeta a cargos adicionales
según se establece en la Declaración que acompaña este Contrato.
a. Cargo anual. Si su cuenta está sujeta a un cargo anual, el cargo se debitará de su cuenta en el
momento de la emisión de su tarjeta. Cada año posterior, el cargo anual se debitará de su cuenta durante
el mismo mes en el que se le cobró la primera vez. El cargo se cobrará cada año hasta que la cuenta se
cierre y el saldo esté completamente cancelado.
b. Cargo por tarjeta adicional. Si su cuenta está sujeta a un cargo por tarjeta adicional, se cobrará un
cargo por cada tarjeta adicional emitida para usted al abrir la cuenta.
c. Cargo por transacciones en moneda extranjera (cargo por financiación). Si su cuenta está sujeta a un
cargo por transacciones en moneda extranjera (cargo por financiación), puede debitarse de su cuenta un
cargo por transacciones realizadas fuera de los Estados Unidos o en moneda extranjera.
d. Recargo por mora. Si su cuenta está sujeta a un recargo por mora, el cargo se debitará de su cuenta
cuando usted no realice el pago mínimo exigido dentro de los días correspondientes a la fecha de
vencimiento de pago del estado de cuenta o antes de esa fecha según se establece en la Declaración que
acompaña este Contrato.
e. Cargos por exceder el límite de crédito. Si elige la opción de permitir que su cuenta exceda su límite
de crédito, puede debitarse de su cuenta un cargo según la ley lo permita. Sin embargo, en ningún caso
impondremos un cargo por exceder el límite de crédito, excepto en los dos ciclos de facturación
siguientes, a menos que usted haya obtenido una extensión adicional de crédito por el monto que excede
dicho límite de crédito durante cada ciclo subsiguiente o que usted haya reducido el saldo por debajo del
límite de crédito al final de cada ciclo de facturación.
f. Cargo por pago devuelto. Si su cuenta está sujeta a un cargo por pago devuelto, el cargo se debitará
de su cuenta cuando se le devuelva un pago por cualquier motivo.
g. Cargo por copias del estado de cuenta. Si su cuenta está sujeta a cargos por copias del estado de
cuenta, excepto según lo limitado por la ley vigente y excepto cuando la solicitud tenga relación con un
error de facturación en que haya incurrido la Cooperativa de Ahorro y Crédito, podrá debitarse de su
cuenta un cargo por cada copia del estado de cuenta o recibo de ventas que usted solicite.
h. Cargos por copias de documentos. Si su cuenta está sujeta a cargos por copias de documentos,
excepto según lo limitado por la ley vigente, podrá debitarse de su cuenta un cargo por cada copia de un
estado de cuenta o recibo de ventas que usted solicite (excepto cuando la solicitud tenga relación con un
error de facturación en que haya incurrido la Cooperativa de Ahorro y Crédito).
i. Cargo por trámite urgente. Si su cuenta está sujeta a un cargo por trámite urgente, excepto según lo
limitado por la ley vigente, puede debitarse de su cuenta el cargo por cada tarjeta urgente que solicite,
siempre que la entrega de la tarjeta también esté disponible por servicio de correo estándar, sin tener que
pagar un cargo por la entrega.
j. Cargo por reemplazo de tarjeta de emergencia. Si su cuenta está sujeta a un cargo por reemplazo de
tarjeta de emergencia, se debitará de su cuenta un cargo por cada tarjeta de reemplazo de emergencia
que se emita para usted.
k. Cargo por reemplazo de tarjeta. Si su cuenta está sujeta a un cargo por reemplazo de tarjeta, se
cobrará un cargo por cada tarjeta de reemplazo que se emita para usted por cualquier motivo.
8. PAGOS. Cada mes usted debe realizar por lo menos el pago mínimo que se indica en su estado de
cuenta antes de la fecha que allí se especifica. Usted puede pagar con mayor frecuencia, pagar más de lo
que el pago mínimo indica o cancelar completamente el nuevo saldo total. Si realiza pagos adicionales o
mayores, igualmente debe realizar al menos el pago mínimo cada mes que su cuenta tenga un saldo (que
no sea un saldo acreedor). El pago mínimo es del 3% de su nuevo saldo total, o bien de $20, el que sea
mayor, más el monto correspondiente a todo pago mínimo anterior que no haya realizado y todo monto
que exceda su límite de crédito. Además del pago mínimo, usted también debe pagar, antes de la fecha
especificada anteriormente, el monto de todo pago mínimo anterior que no haya realizado, todo cargo y
gasto impago pendiente, y todo monto que exceda su límite de crédito. La Cooperativa de Ahorro y
Crédito tiene derecho a exigir el pago inmediato de todo monto que exceda su límite de crédito.
9. ASIGNACIÓN DE PAGOS. Con sujeción a las leyes pertinentes, sus pagos pueden aplicarse a lo que
le debe a la Cooperativa de Ahorro y Crédito de cualquier modo en que esta decida. Sin embargo, en
cada caso, si usted realiza un pago que exceda el pago mínimo periódico exigido, la Cooperativa de
Ahorro y Crédito asignará el monto excedente primero al saldo que tenga la tasa de porcentaje anual más
alta y toda porción remanente a los otros saldos en orden descendente, según la tasa de porcentaje anual
vigente.
10. DERECHO DE GARANTÍA. Usted otorga a la Cooperativa de Ahorro y Crédito un derecho de garantía
conforme al Código Comercial Uniforme y conforme a todos los derechos consuetudinarios que la
Cooperativa de Ahorro y Crédito pueda tener sobre todo bien que usted compre. Si usted entrega a la
DCAGX1 (MXC500 CCM000)-e

Cooperativa de Ahorro y Crédito una garantía específica de acciones mediante la firma de una garantía de
acciones por separado, sus acciones entregadas en garantía garantizarán su cuenta. Usted no puede
retirar montos que hayan sido específicamente afectados a la garantía para garantizar su cuenta hasta
que la Cooperativa de Ahorro y Crédito acuerde cancelar la totalidad o una parte del monto entregado en
garantía.
Su cuenta está garantizada con todas las demás acciones que usted posee en cualquier cuenta,
individual o conjunta, con la Cooperativa de Ahorro y Crédito, excepto por las acciones de una Cuenta
de Retiro Individual o de cualquier otra cuenta en la que usted perdería tratamiento fiscal especial de
conformidad con las leyes federales o estatales si las cediera en garantía. Estas otras acciones sí pueden
retirarse, a menos que usted se encuentre en situación de incumplimiento de acuerdo con este Contrato.
Usted autoriza a la Cooperativa de Ahorro y Crédito a afectar el saldo de sus cuentas de acciones
individuales o conjuntas al pago de toda cantidad pendiente de pago en su cuenta en caso de
incumplimiento.
Las garantías de otros préstamos que usted haya recibido de la Cooperativa de Ahorro y Crédito también
pueden garantizar este préstamo, excepto que nunca se considerará a una vivienda como garantía de esta
cuenta, independientemente de todo lo que conste en sentido contrario en cualquier otro contrato.
11. INCUMPLIMIENTO. Usted se encontrará en situación de incumplimiento si no realiza algún pago
mínimo o algún otro pago exigido antes de su fecha de vencimiento. Se encontrará también en situación
de incumplimiento si no cumple con lo acordado en este Contrato. Se encontrará en situación de
incumplimiento si fallece, se presenta en bancarrota o se declara insolvente, es decir, incapaz de pagar
sus obligaciones antes de su vencimiento. Se encontrará en situación de incumplimiento si realiza
cualquier declaración falsa o engañosa en cualquier solicitud de crédito o actualización de crédito. Se
encontrará también en situación de incumplimiento en caso de que tenga lugar algún acontecimiento por
el que la Cooperativa de Ahorro y Crédito considere que su capacidad de cancelar sus deudas se ha
reducido substancialmente.
Cuando se encuentre en situación de incumplimiento, la Cooperativa de Ahorro y Crédito tendrá derecho
a exigir el pago inmediato de la totalidad del saldo de su cuenta sin necesidad de notificarle a usted. Si se
le exige el pago inmediato, usted acuerda continuar pagando los cargos por financiación, según la tasa
periódica previa a la situación de incumplimiento, hasta que su deuda haya sido cancelada, y toda acción
que haya sido cedida en garantía de su cuenta puede aplicarse al pago de su deuda.
12. RESPONSABILIDAD POR LA NOTIFICACIÓN DE TARJETAS ROBADAS, PERDIDAS O UTILIZADAS
SIN AUTORIZACIÓN. Usted acuerda notificarnos de inmediato respecto de la pérdida, el robo o el uso no
autorizado de su tarjeta de crédito, en forma oral o por escrito a P.O. Box 208005, Stockton, CA
95208-9005 o por teléfono al (209) 948-6024, ext. 50197, de lunes a jueves de 9:00a.m. a 4:30p.m., o
al (209) 948-6024, ext. 50197, los viernes de 9:00a.m. a 5:30p.m., o al (800) 453-4270 fuera del
horario comercial, fines de semana y feriados. Usted puede ser responsable del uso no autorizado de su
tarjeta de crédito. No será responsable del uso no autorizado de su tarjeta que tenga lugar después de
que usted nos notifique de la pérdida, del robo o del posible uso no autorizado de la misma. Usted no
será responsable de compras no autorizadas realizadas con su tarjeta de crédito, a menos que haya sido
considerablemente negligente en el uso de su tarjeta. En cualquier caso, su responsabilidad no superará
los $50.
13. CAMBIO O TERMINACIÓN DE SU CUENTA. Según lo permitido por la ley, la Cooperativa de Ahorro y
Crédito puede cambiar los términos de este Contrato y toda Declaración adjunta periódicamente. Se
notificará sobre todo cambio según lo establecen las leyes pertinentes. Si la ley lo permite y se lo
especifica en la notificación que se le realice, el cambio se aplicará al saldo existente de su cuenta, así
como también a las transacciones futuras. Usted o la Cooperativa de Ahorro y Crédito pueden extinguir
este Contrato en cualquier momento, pero en ninguno de los dos casos la terminación afectará su
obligación de pagar el saldo de su cuenta más todos los cargos por financiación o de otro tipo que usted
adeude según este Contrato. Su obligación de pagar el saldo de su cuenta más todos los cargos por
financiación o de otro tipo que usted adeude según este Contrato está sujeta a todas las leyes y
regulaciones vigentes relacionadas con requisitos de reintegro. Usted también es responsable de todas las
transacciones que se realicen en su cuenta después de su terminación, a menos que dichas transacciones
no estén autorizadas.
Toda tarjeta que usted reciba seguirá siendo propiedad de la Cooperativa de Ahorro y Crédito, y usted
debe recuperar y entregar a la Cooperativa de Ahorro y Crédito todas las tarjetas cuando se las soliciten o
cuando usted o la Cooperativa de Ahorro y Crédito extingan este Contrato. Para las cuentas conjuntas, el
párrafo sobre CUENTAS CONJUNTAS de este Contrato también se aplica a la terminación de la cuenta.
14. CAMBIO O CANCELACIÓN DE USUARIOS AUTORIZADOS. Si lo solicita, podemos emitir tarjetas
adicionales para usuarios autorizados que usted designe. Debe notificarnos por escrito toda cancelación
del derecho de un usuario autorizado a acceder a su cuenta. Su carta debe incluir el nombre del usuario
autorizado, el número de cuenta de usted y todo número de subcuenta emitida al usuario autorizado junto
con la tarjeta del usuario autorizado y todo cheque de conveniencia u otros cheques de acceso emitidos
al usuario autorizado. Si no puede devolver la tarjeta o los cheques de acceso del usuario autorizado, y si
usted solicita que se le cierre la cuenta, se la cerraremos y podrá solicitar una cuenta nueva.

DCAGX1 (MXC500 CCM000)-e

15. REVISIÓN Y DIVULGACIÓN DE INFORMACIÓN CREDITICIA. Usted autoriza a la Cooperativa de
Ahorro y Crédito a investigar su solvencia cuando se abra o revise su cuenta. También autoriza a la
Cooperativa de Ahorro y Crédito a revelar información respecto de su cuenta a las oficinas de crédito y a
los acreedores que investiguen su solvencia. Si su cuenta es elegible para servicios de efectivo o de
reemplazo de tarjeta de emergencia y usted solicita dichos servicios, usted acuerda que nosotros
podemos suministrar la información personal acerca de usted y de su cuenta que sea necesaria para
poder prestarle los servicios solicitados.
16. DEVOLUCIONES Y AJUSTES. Los comerciantes y otras personas que acepten su tarjeta pueden
otorgar créditos en concepto de devoluciones o ajustes, y lo harán mediante el envío de una nota de
crédito a la Cooperativa de Ahorro y Crédito, que se asentará en su cuenta. Si sus créditos y pagos
superan lo que usted le debe a la Cooperativa de Ahorro y Crédito, se aplicará el monto a compras y
anticipos en efectivo futuros. Si el saldo acreedor es de $1 o más, se le reintegrará cuando presente una
solicitud por escrito o en forma automática después de que hayan transcurrido seis (6) meses.
17. MEJORAS DE LA TARJETA Y BENEFICIOS ADICIONALES. La Cooperativa de Ahorro y Crédito puede
periódicamente ofrecer servicios adicionales para su cuenta, tales como seguro de accidentes para viajes,
sin ningún costo adicional. Usted comprende que la Cooperativa de Ahorro y Crédito no está obligada a
ofrecer tales servicios y puede suspenderlos o modificarlos en cualquier momento.
18. CONFLICTOS CON COMERCIANTES. La Cooperativa de Ahorro y Crédito no es responsable de la
negativa de comerciantes o instituciones financieras a aceptar su tarjeta. La Cooperativa de Ahorro y
Crédito está sujeta a reclamos y defensas (que no sean reclamos por actos ilícitos) relacionados con
bienes o servicios que usted compre con la tarjeta si usted los adquirió de buena fe pero el comerciante o
el prestador del servicio no le brindaron satisfacción y (a) su compra respondió a una publicidad que la
Cooperativa de Ahorro y Crédito le envió o de la que participó en el envío, o (b) su compra costó más de
$50 y se realizó en su estado o a menos de 100 millas de distancia de su hogar.
19. CUENTAS CONJUNTAS. Si esta es una cuenta conjunta, cada uno de los titulares es responsable
individual y conjuntamente del pago de todos los montos adeudados conforme a este Contrato. Ello
significa que la Cooperativa de Ahorro y Crédito puede exigir a cualquiera de ustedes que cancele
individualmente la totalidad de la deuda según lo establece este Contrato. Cada uno de ustedes autoriza a
los demás a realizar compras u obtener anticipos en efectivo en forma individual. Cualquiera de ustedes
puede extinguir la cuenta y la terminación será efectiva para todos.
20. VIGENCIA DEL CONTRATO. Este Contrato rige todas las transacciones de su cuenta, aun cuando las
ventas, anticipos en efectivo, créditos u otras notas de crédito que usted firme o reciba contengan
diferentes términos.
21. NO RENUNCIAMOS A NUESTROS DERECHOS. La Cooperativa de Ahorro y Crédito puede demorarse
en hacer cumplir cualquiera de sus derechos cualquier cantidad de veces que lo disponga sin perderlos.
22. ESTADOS DE CUENTA Y NOTIFICACIONES. Los estados de cuenta y las notificaciones se enviarán
por correo a la dirección más reciente que usted le haya dado a la Cooperativa de Ahorro y Crédito. Al
enviarse una notificación a cualquiera de ustedes, se considerará que todos han sido notificados.
23. DIVISIBILIDAD Y EXPRESIÓN FINAL. Este Contrato y la Declaración son la expresión final de los
términos y las condiciones de su cuenta. Este Contrato y esta Declaración escritos no pueden
contradecirse mediante evidencia de ningún presunto contrato oral. En caso de que se determinara que
alguna parte de este Contrato o de la Declaración fuera inválida o no fuera exigible judicialmente, todas
las demás partes de este Contrato y de la Declaración se mantendrán vigentes y plenamente exigibles
judicialmente en la medida de lo posible conforme a este Contrato.
24. COPIA RECIBIDA. Usted confirma haber recibido una copia de este Contrato y de la Declaración.
25. PROHIBICIÓN DE TRANSACCIONES DE JUEGOS DE AZAR EN INTERNET. Usted no puede utilizar su
tarjeta para iniciar ninguna transacción electrónica de juegos de azar por Internet.
26. DECLARACIÓN SOBRE TASAS PUNITIVAS. Si corresponde a su cuenta, todas las tasas para su
cuenta, incluidas las tasas por compras, anticipos en efectivo y transferencias de saldo, aumentarán a la
tasa punitiva especificada en la Declaración que acompaña este Contrato cuando se cumpla una o más de
las condiciones establecidas en la Declaración. Todo aumento de tasa aplicado a su cuenta está sujeto a
los requisitos de notificación pertinentes. Para obtener información adicional sobre la tasa punitiva,
consulte la Declaración.
27. AVISO A LOS PRESTATARIOS DE UTAH. Este contrato por escrito es la expresión final del contrato
entre usted y la Cooperativa de Ahorro y Crédito. Este contrato escrito no puede contradecirse mediante
la evidencia de ningún contrato oral.
28. LA LEY DE VERMONT EXIGE LO SIGUIENTE: AVISO AL COFIRMANTE. SU FIRMA EN ESTE
DOCUMENTO SIGNIFICA QUE USTED ES IGUALMENTE RESPONSABLE DE LA DEVOLUCIÓN DE ESTE
PRÉSTAMO. SI EL PRESTATARIO NO PAGA, EL PRESTAMISTA TIENE EL DERECHO LEGÍTIMO DE
COBRARLE A USTED.
29. AVISO A LOS PRESTATARIOS DE ALABAMA. ADVERTENCIA: ES IMPORTANTE QUE LEA
CUIDADOSAMENTE ESTE CONTRATO ANTES DE FIRMARLO.
DCAGX1 (MXC500 CCM000)-e

Your Billing Rights: Keep this Document for Future Use
Esta notificación describe sus derechos y nuestras obligaciones según lo establece la Ley de Facturación
Justa de Créditos (Fair Credit Billing Act).
Qué debe hacer si considera que hay un error en su estado de cuenta
Si considera que hay un error en su estado de cuenta, escríbanos a:
Financial Center Credit Union
PO Box 208005
Stockton, CA 95208-9005
También puede comunicarse con nosotros en el sitio web: www.fccuburt.org
En su carta, suminístrenos la siguiente información:
-

Información de la cuenta: su nombre y su número de cuenta.
Monto en dólares: la cantidad del presunto error, expresada en dólares.
Descripción del problema: si considera que hay un error en su facturación, describa cuál es y por
qué cree que se trata de un error.

Debe comunicarse con nosotros:
-

En un plazo de 60 días después de que el error figure por primera vez en su estado de cuenta.
En un plazo de al menos 3 días hábiles antes de la fecha en que está programado un pago
automático, si desea suspender el pago del monto que cree que está equivocado.

Usted debe notificarnos sobre todos los posibles errores por escrito [o por vía electrónica]. Puede
llamarnos, pero si lo hace no estamos obligados a investigar ningún posible error y es posible que usted
deba pagar el monto cuestionado.
Qué sucederá luego de que recibamos su carta
Cuando recibamos su carta, debemos hacer dos cosas:
1. Dentro de un plazo de 30 días de la recepción de su carta, debemos avisarle que la recibimos.
También le notificaremos si ya corregimos el error.
2. Dentro de un plazo de 90 días de la recepción de su carta, debemos corregir el error o bien
explicarle por qué consideramos que la facturación es correcta.
Mientras investigamos si hubo un error o no:
-

No podemos tratar de cobrar el monto que usted cuestione ni denunciarlo como moroso por esa
suma.
El cargo cuestionado puede seguir figurando en su estado de cuenta y podemos seguir cobrándole
interés sobre ese monto.
Aunque no tenga que pagar el monto cuestionado, usted es responsable del resto del saldo.
Podemos aplicar cualquier monto impago a su límite de crédito.

Luego de finalizada nuestra investigación, sucederá una de dos cosas:
-

Si cometimos un error: no deberá pagar el monto cuestionado ni ningún interés u otros cargos
relacionados con ese monto.
Si creemos que no hemos cometido un error: deberá pagar el monto cuestionado, incluidos los
intereses y los cargos pertinentes. Le enviaremos un resumen del monto que adeude y su fecha de
vencimiento. Si usted no paga el monto que consideramos que nos adeuda, podemos entonces
denunciarlo como moroso.

Si usted recibe nuestra explicación pero aun así considera que la facturación contiene errores, debe
escribirnos en un plazo de 10 días para notificarnos que todavía se rehúsa a pagar. Si lo hace, no
podemos denunciarlo como moroso sin informar también que usted está cuestionando su facturación.
Debemos darle a usted el nombre de toda persona a quien denunciamos como moroso y debemos
informar a esas organizaciones cuando esté resuelto el tema.
Si no actuamos conforme a las normas antes expresadas, no debe pagar los primeros $50 del monto
cuestionado, aun cuando la facturación sea correcta.
Sus derechos en caso de que usted no esté conforme con las compras realizadas con su tarjeta de crédito
Si usted no está conforme con los bienes o servicios que pagó con su tarjeta de crédito e intentó resolver
el problema de buena fe con el comerciante, puede tener el derecho de no pagar el monto remanente
pendiente de pago correspondiente a esa compra.

DCAGX1 (MXC500 CCM000)-e

Para obtener este derecho, deben cumplirse todas las siguientes condiciones:
1. La compra debe haberse realizado en el estado de su residencia o, de lo contrario, a no más de 100
millas de su dirección postal actual, y el precio de compra debe haber sido superior a $50. (Nota:
ninguna de estas condiciones es necesaria si usted efectuó una compra conforme a una publicidad
que le enviamos por correo o si nosotros somos los dueños de la compañía que le vendió los bienes
o servicios).
2. Debe haber utilizado su tarjeta de crédito para efectuar la compra. No podrá acceder a este derecho
si compra con anticipos en efectivo que extrajo de un cajero automático o con cheques cuyos
fondos provengan de la cuenta de su tarjeta de crédito.
3. Todavía no debe haber terminado de pagar lo que compró.
Si se cumplen todos los requisitos anteriores y usted sigue estando disconforme con la compra,
comuníquese con nosotros por escrito [o por vía electrónica] a:
Financial Center Credit Union
PO Box 208005
Stockton, CA 95208-9005
Mientras investigamos, rigen las mismas normas para el monto en disputa que se indicaron anteriormente.
Luego de finalizar nuestra investigación, le comunicaremos nuestra decisión. En ese momento, si creemos
que usted adeuda un monto y no lo paga, podemos denunciarlo como moroso.
NOTIFICACIÓN DE INFORMACIÓN NEGATIVA. La ley federal nos exige que proporcionemos la siguiente
notificación a los miembros antes de que cualquier "información negativa" pueda comunicarse a una
agencia de informe crediticio del país. Podemos proporcionarle información sobre sus cuentas a las
oficinas de crédito. Los pagos en mora, los pagos adeudados u otras situaciones de incumplimiento con
respecto a su cuenta se pueden reflejar en su informe crediticio.

DCAGX1 (MXC500 CCM000)-e

